CERTIFICATE OF SERVICE
No. TBD
Jason Edward Rheinstein
Petitioner(s)
v.
Attorney Grievance Commission of Maryland
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the JASON
EDWARD RHEINSTEIN PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michele J. McDonald
Assistant Attorney General
Office of the Attorney General
200 St. Paul Pl, 20th fl.
Baltimore, MD 21202
(410) 576-6300
Counsel for Atty. Griev. Comm 'n. of Md.

Ch
July 25, 2019
SCP Tracking: Rheinstein-P.O. Box 1369-Cover White

